U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 25, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

The Cherokee Nation v. David Bemhardt, Secretary of the Interior, et a!,
S.Ct. No. 19-937

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 23,
2020, and placed on the docket on January 27, 2020. The government's response is due on
February 26, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 27, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0937
THE CHEROKEE NATION
DAVID BERNHARDT, SEC. OF THE INTERIOR, El
AL.

LLOYD B. MILLER
SONOSKY, CHAMBERS, SACHSE,
MILLER & MUNSON, LLP
725 EAST FIREWEED LANE
SUITE 420
ANCHORAGE, AK 99503
907-258-6377
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K STREET, NW
WASHINGTON, DC 20005
202-736-8000
CPHILLIPS@SIDLEY.COM

